Appendix A
Case l:17-cv-03505-ELR Document 52 Filed 01/11/19
IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MICHAEL BENNETT,
Plaintiff,
l:17-CV-03505-ELR

V,
MARVEL ENTERTAINMENT AND
MARK MILLAR,
.

4

Defendants,

ORDER

There are several matters before the Court, including Defendant Marvel
Entertainment’s “Motion to Dismiss, with Prejudice, Plaintiffs Second Amended
Complaint” [Doc. 45]. The Court’s ruling and conclusions are set forth below.

App. 1

I.

Background

On March 17, 2017, Plaintiff Michael T. Bennett, proceeding pro se, filed an
action in the State Court of Gwinnett County, Georgia, against Defendants Marvel
Entertainment (“Marvel”) and its purported employee, Mark Millar (“Millar”)
(collectively, “Defendants”). Compl. [Doc. 1-1]. Plaintiff alleged in a one-page
complaint, that Defendants committed criminal copyright infringement (1) for the
theft of Plaintiffs 2008 Owl Unlikely Crusader and and 2012 Owl Knight’s
Quickening books (collectively, “Owl books”). Plaintiff sought $1.2 billion in lost
income. [Id.] On July 31, 2017, Plaintiff filed a “Motion to add Copyright Infractions
to Claim,” (“Motion to Amend). [Doc. 3]. Plaintiffs attached more than 300 pages to
his Motion to Amend, which appeared to be Plaintiffs amended complaint (“300page Amended Complaint”).
On September 13, 2017, Defendant Marvel removed Plaintiffs suit from the
State Court of Gwinnett County, Georgia, to this Court. [Doc.l]. On October 20,
2017, Defendant Marvel jointly filed (1) a motion to dismiss Plaintiffs original
complaint, (2) a motion to dismiss Plaintiffs 300-page Amended Complaint, and (3)
Defendant Marvel’s opposition to the Court allowing Plaintiff to amend his
complaint. (Doc, 11-1).
On July 17, 2018, after careful review, the Court granted Defendant Marvel’s
motion to dismiss; however, given Plaintiff s pro se status, the Court allowed
Plaintiff an additional opportunity to amend his complaint. [Doc, 36] Specifically,
(l)While there is a criminal copyright infringement statute, 17 U.S.C. - 506, Plaintiff, as a private
individual, cannot assert a private cause of action for criminal copyright infringement. Kelly v L.L.
Cool J„ 145 F.R.D. 32, 39 (S.D.N.Y. 1992), aff d sub nom., 23 F.3d 398 (2d Cir. 1994) (“[T]here is no
private cause of action under the criminal provisions of the copyright law.). However, given
Plaintiffs pro se status, Defendant Marvel construed “Plaintiffs claim to be one for civil copyright
infringement.” [Doc. 11-1 at 7], The Court also construed Plaintiffs claim as one for civil copyright
infringement.
the undersigned explained that Plaintiffs 300-page Amended Complaint was a
shot-gun pleading that (1) did not specify which Defendant was responsible for
which act and (2) failed to separate his allegations into different counts or claims for
relief. [Id, at 6]. Furthermore, the undersigned explained that Plaintiffs extensive
“comparisons” of the purportedly infringing marvel works were insufficient to
establish a valid copyright infringement claim that demonstrated that the works at
issue were “substantially similar” such that “an average lay observer would
recognize the alleged copy as having been appropriated from the copyrighted work.”
[Id. (quoting Beal v Paramount Pictures Corp., 20 F.3d 454, n.4 (11th Cir 1994))].
On August 2, 2018, Plaintiff filed a “Motion to Resubmit New Paperwork as
ordered on July 17, 2018...” which the Court and Defendant Marvel construe as
Plaintiffs Second Amended Complaint. 2 [Doc. 42]. On August 20, 2018, Defendant
App. 2

Marvel filed a “Motion to Dismiss, with Prejudice, Plaintiffs Second Amended
Complaint” Doc. 45], which is now ripe for the Court’s review.
Motion to Dismiss Legal Standard
When considering a 12(b)(6) motion to dismiss, the Court must accept as true
the allegations set forth in the complaint drawing all reasonable inferences in the
2 that same day, Plaintiff filed a “Motion to Remove Mark Millar as Defendant,” which the Court
construes as a motion to dismiss Defendant Mark Millar. [Doc. 41]. Defendant Marvel filed a
response in non-opposition to Defendant Millar’s dismissal. [Doc. 44]. The Court grants Plaintiffs
motion to dismiss Defendant Millar as unopposed.
II.

Light most favorable to the plaintiff. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 55556 (2007); U.S. v. Strieker, 524 F. App’x 500, 505 (11th Cir. 2013) (per curiam). Even
so, a complaint offering mere “labels and conclusion” or “a formulaic recitation of
the elements of a cause of action” is insufficient. Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Twombly, 550 U.S. at 555); accord Fin. Sec. Assurance, Inc. v.
Stephens, Inc., 500 F.3d 1276, 1282-83 (11th Cir. 2007).
Furthermore, the complaint must “contain sufficient factual matter, accepted
as true, ‘to state a claim to relief that is plausible on its face.’” Iqbal, 556 U.S. at 678
(citing Twombly, 550 U.S. at 570). Put another way, a plaintiff must plead “factual
content that allows the Court to draw the reasonable inferences that the defendant
is liable for the misconduct alleged.” Id. This so-called “plausibility standard” is not
akin to a probability requirement; rather, the plaintiff must allege sufficient facts
such that is reasonable to expect that discovery will lead to evidence supporting the
claim. Id.
III. Discussion
Two elements must be proven to establish copyright
infringement: (1) ownership of a valid copyright, and (2) copying of
constituent elements of the work that are original. Beal v. Paramount
Picture Corp, 20 F.3d 454 (11th Cir. 1994). To establish copying, the
plaintiff must show that the defendant had access to the copyrighted
work and that the two works are so “substantially similar” that an
average lay observer would recognize the alleged copy as having been
appropriated from the original work. Calhoun v. Lillenas Publ’g, 298
F.3d 1228, 1232 (11th Cir. 2002). If the plaintiff cannot show access, the
plaintiff may still prevail by demonstrating that the works are
“strikingly similar.” Id. at 1232 n.6. Striking similarity exists where
the proof of similarity in appearance is so striking that the possibilities
of independent creation, coincidence, and prior common source are, as
a practical matter, precluded. Corwin v. Walt Disney Co, 475 F. 3d
1239, 1253 (11th Cir. 2007).
While expression is protected, ideas are not. See 17 U.S.C. —
102(b). In addition to broad ideas, noncopyrightable material includes

App. 3

scenes a faire, those stock scenes that naturally flow from a common
theme. Beal, 20 F.3d at 459-60. List of similarities, as many such.
similarities can be found in very dissimilar works. Id. at 460.
Singleton v. Dean, 611 F App’x 671, 672 (11th Cir. 2015).
Although the Court recognizes that “pro se pleadings are held to a less
stringent standard than pleadings drafted by attorneys,” nothing requires a district
court to waste judicial resources attempting to decipher an unintelligible pleading.
Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th Cir. 1998) (per curiam);
see Peavey v. Black, 476 F. App’x 697, 699 (11th Cir. 2012) (per curiam) (affirming
dismissal of pro se complaint that was “unintelligible, indecipherable, and replete
with irrelevant facts, making it impossible for the defendants to know what (the
plaintiff was) claiming, against whom, and on what grounds”).
Again, the Court has diligently attempted to determine the wrongs for which
Plaintiff seeks redress. It appears that Plaintiff again claims that Defendants, in
creating the productions Captain America: Winter Soldier, Ant-Man, Captain
America: Civil War, Guardians of the Galaxy, Avengers: Age of Ultron, and Agents of
S.H.I.E.L.D., copied Plaintiffs self-published Owl books. In his Second Amended
Complaint, Plaintiff added additional Marvel works that he alleges Defendant
, copied from his, Owl books: Captain America: The First Avenger; Iron man 3; SpiderMan: homecoming; Thor: Ragnarok; Black Panther; Avengers: Infinity War; and ;
Ant-Man and the Wasp. Throughout most of his Second Amended Complaint,
Plaintiff compares his Owl books with these above mentioned Marvel productions,
and instead, generally refers to the Marvel characters most of the time. (3) For
example, like his first Amended Complaint, Plaintiff compares his character Owl’s
mechanized wings with Marvel’s character Falcon’s mechanized wings, [Compare
Doc. 1-1 at 49-54 with Doc. 42-7 at 10), and states that his character “Owl’s use of a
parachute is like Falcon’s use of a parachute.” [Compare Doc. 1-1 at 40 with Doc. 427 at 22]. (4)
"
Just as the Court explained in its July 17, 2018 Order, these blanket
assertions regarding the purported similarities between Plaintiffs Owl books and
the Marvel
. ,
(3) Defendant points out in its motion to dismiss, that Plaintiff attached evidence of his copyright
registration for his 2012 Owl book but not his 2008 Owl book., While not determinative of the Court’s
granting of Defendant’s motion, infra, Plaintiff did not attach this registration to his Second
Amended Complaint as evidence of the first prong of his copyright infringement claim.
(4) As additional examples, Plaintiff also asserts that “Owl walking to his desk and seeing Morikaido
is like Captain America walking up to Fury’s desk and seeking Fury” [Doc. 42-7 at 3]; “Owl seeing a
little kid is like Captain America seeing a little kid “ [Id. at 5]; “Owl wearing street clothes while he
uses his wings is like Falcon wearing street clothes while he uses his wings” (Id. at 7]; “Owl being
seen on camera is like Captain America being seen on camera” [Id. at 9]; “Owl using a laptop is like
Captain America using a laptop” [Id. at 15]; and “Owl being knocked to the floor is like (t)he
scientist/doctor being knocked to the ground” [Id. at 16]. •' '

Productions appear to be broad ideas found in most action movies and comic books
and scenes a faire, rather than copyright infringement. More specifically, Plaintiffs
numerous attempts to compare his Owl books with the Marvel productions, while

App.4

wide-ranging, are generalize rather than “substantially similar” or “strikingly
similar.” See Singleton, 611 F. App’x at 672 (affirming district court’s dismissal of
pro se plaintiffs copyright infringement complaint by stating “[Plaintiff] has not
shown any examples of copyright infringement, because the alleged similarities
either do not exist or concern broad ideas or scenes a faire. Her complaint points to
a list of random similarities between two books, which is exactly what this court
rejected as evidence of copyright infringement in Beal”).
Furthermore, as previously explained by the Court, Plaintiffs Second
Amended Complaint is more of a diary-like comparison than a complaint. See
Yeyille v. Miami Dade Cty. Public Schools, 643 F. App’x 882, 884 (11th Cir. 2016)
(“[T]he district court correctly concluded that [plaintiff’s third amended
complaint... was a shotgun pleading. Rather than using short and plain statements
as required by the Federal Rules, the third amended complaint included an 85paragraph fact section spanning 31 pages, much of it written in narrative, diary-like
form.”). Thus, Plaintiffs Second Amended Complaint fails to state a claim.
Accordingly, for all these reasons, the Court grants, the Court grants
Defendant Marvel’s motion to Dismiss Plaintiff s Second Amended Complaint [Doc.
45].
IV.
Conclusion
For the foregoing reasons, the Court GRANTS Defendant Marvel’s “Motion for
Withdrawal of Sarah LaFantano as Counsel” [Doc. 34]; DENIES Plaintiffs “Motion
to inquire why Ms. Sarah Parker LaFantano resigned her position at Alston & Bird”
[Doc. 37]; DENIES Defendant Marvel’s Motion for Attorneys’ Fees related to
Plaintiffs inquiry [Doc. 40]; GRANTS Plaintiffs “Motion to Remove Mark Millar as
Defendant" [Doc. 41]; GRANTS Plaintiffs “Motion to Resubmit New Paperwork as
ordered on July 17, 2018...” [Doc. 42]; GRANTS Defendant Marvel Entertainment’s
“Motion to Dismiss, with Prejudice, Plaintiffs Second Amended Complaint” [Doc.
45]; DISMISSES WITH PREJUDICE this action; and DIRECTS the Clerk to close
this case.

SO ORDERED, this 11th day of January, 2019.

s/

Eleanor L. Ross
United States District Judge
Northern District of Georgia

App. 5

Appendix B
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-10522
Non-Argument Calendar

MICHAEL T. BENNETT,
Plaintiff — Appellant.
versus
MARVEL ENTERTAINMENT, LLC,
Defendant - Appellee,

Appeal from the United States District Court
For the Northern District of Georgia

(October 30, 2019)
Before ED CARNES, Chief Judge, TJOFLAT, and JORDON, Circuit Judges,
PER CURIAM:
App. 6

I.
Michael Bennett wrote and self-published two comic books featuring a
superhero named Owl. (1) He sent Owl Unlikely Crusader to Marvel
Entertainment, LLC, in 2008 as a “writer’s inquiry.” He later made Owl Knight’s
Quickening available on Amazon.
In 2017 Bennett filed a pro se complaint in Georgia state court alleging that
Marvel and Mark Millar, a comic book writer, committed infringement. The onepage complaint alleged that Marvel and Mark Millar used ideals from his Owl books
in three of their movies, and it sought $1.2 billion dollars in damages. Four months
and one continuance later, Bennett filed a first amended complaint. It was over 300
pages long and filed with screenshots from Marvel movies that Bennett claimed
resembled scenes from his books. Marvel removed the case to federal court based on
federal question jurisdiction and moved to dismiss the complaint under Fed. R. Civ.
P. 12(b)(6).
The district court ruled that Bennett’s first amended complaint was a shotgun
complaint that failed to separate the claims or specify which allegations were made
against which defendants. It also ruled that he failed to allege enough
(l)When reviewing an appeal of a motion to dismiss we accept the factual allegations in the
complaint as true. Quality Auto Painting Ctr. Of Roselle v. State Farm Indem. Co., 917 F.3d 1249,
1260 (11th Cir. 2019). The facts here are thus taken from the second amended complaint.
facts to state a copyright claim. The court dismissed the complaint and instructed
Bennett to file a second amended complaint.
Bennett voluntarily dismissed Millar and filed a ninety-page second amended
complaint against only Marvel. Mixed in among the screenshots from Marvel
movies were allegations that Marvel hacked his phone and used its movies to send
him threating messages. Marvel moved to dismiss the second amended complaint.
The district court ruled that it was “diary-like comparison rather than a complaint.”
And because it made only generalized comparisons between Marvel’s movies and
the Owl books, it did show that they were “strikingly similar.” The court dismissed
Bennett’s second amended complaint with prejudice for failing to state a claim. He
appeals. He also moves to add to the record a compact disc containing evidence, to
increase the amount of damages he is seeking, and have several subpoenas issued.
I.I.
We review de novo a court’s dismissal of a complaint with prejudice for failure to
state a claim. Am. Dental Ass’n v. Cigna Corp, 605 F.3d 1283, 1288 (11th Cir. 2010).
We liberally construe pro se litigants’ pleading. Albra v. Advan, Inc., 490 F.3d 826,
829 (11th Cir. 2007). But they still must follow the procedural rules, id., including
the rules governing the sufficiency of briefs on appeal, Miccosukee Tribe of Indians
v. Cypress, 814 F. 3d 1202, 1211 (11th Cir. 2015). A party on appeal must “Plainly

App. 7

and prominently” indicate the issues it wishes to appeal. Sapuppo v. Allstate
Floridian Ins. Co., 739 F.3d 678, 680 (11th Cir. 2014). Arguments must be
“specifically and clearly identified in the brief’ or else they are abandoned. Id.
III.
The district court dismissed Bennett’s complaint for two reasons: it made broad
generalized claims, and it was more of a “diary-like comparison” than a complaint.
But Bennett’s briefs on appeal do not address these issues; nor do they address the
district court’s order.
In fact, it is difficult to tell from his briefs exactly what Bennett contends. He
again compares various movies, not all of which are Marvel’s, with scenes from his
book. He claims that Marvel hacked his phone, sent him messages through its
movies, and conspired against America. But he does not state how the district court
erred. Nor does he explain how he stated a claim upon which relief can be granted.
Even liberally construing his briefs, see Albra, 490 F.3d at 829, Bennett has
failed to clearly identify any arguments for overturning the district court’s order
dismissing his second amended complaint. See Sapuppo, 739 F.3d at 680. The
district court’s order dismissing Bennett’s complaint is AFFRIMED, and Bennett’s
motions to introduce evidence on a CD, increase damages, and issue subpoenas are
DENIED.

App. 8

Appendix C
Case: 19-10522

Date Filed: 12/13/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-10522

MICHAEL T. BENNETT,
Plaintiff - Appellant,
versus
MARVEL ENTERTAINMENT, LLC,
Defendant — Appellee,
MARK MILLAR,
Defendant.

Appeal from the United States District Court
For the Northern District of Georgia

App. 9

ORDER:

Appellant’s Motion to Amend Exhibit 1 (Sample of Proof CD) turned in with
Petition of Rehearing on November 20, 2019, is GRANTED.

s/

CHIEF JUDGE

App. 10

Appendix D
Case: 19-10522

Date Filed: 12/13/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-10522

MICHAEL T. BENNETT,
Plaintiff - Appellant,
versus
MARVEL ENTERTAINMENT, LLC,
Defendant — Appellee,
MARK MILLAR,
Defendant.

Appeal from the United States District Court
For the Northern District of Georgia

BEFORE: ED CARNES, Chief Judge, JORDAN, andTJOFLAT, Circuit Judges.

App. 11

PER CURIAM:

j

The petition for Panel Rehearing filed by Michael Bennett is DENIED. Appellant’s
Motion to inquire if the Defendants provided the Court with a copy of his 2011
Marvel/Mark Millar Defamation CD is DENIED. Appellant’s Motion to introduce
samples of his 2011 Marvel/Mark Millar Defamation Letter with Proof CD is
DENIED.
i

ORD-41

.»

f ’

t

App..l2

.

I

Appendix E
Constitutional and Statutory Provisions Involved
1. Title /Chapter 17 of the United States Code subsection 102 Subject Matter of
Copyright: In General (Attached hereto as Appendix F).
(a) Copyright protection subsist, in accordance with this title, in
original works of authorship fixed in any tangible medium of
expression, now known of later developed, from which they can be
perceived, reproduced or otherwise communicated, either directly or
with the aid of a machine or device. Works of authorship include the
following categories:
(1) literary works;
(2) musical works, including any accompanying words;
(3) dramatic works, including ant accompanying words;
(4) pantomimes and choreographic works;
(5) pictorial, graphic and sculptural works;
(6) motion pictures and other audiovisual works;
(7) sound recordings; and
(8) architectural works.
(b) In no case does copyright protection for an original work of authorship extend
to any ideal, procedure process, system, method of operation, concept, principle, or
discovery, regardless of the form in which it is described, explained, illustrated, or
embodied in such work.

App. 13

Appendix F
The United States Court Of Appeals
For The Eleventh Circuit
U.S. COURT OF APPEALS
RECEIVED CLERK
NOV 25 2019
ATLANTA, GA

Plaintiff:

Michael Bennett

Civil Action File Number:

VS.

19-10522-DD

Defendant:

Marvel Entertainment, LLC

Defendant:

Mark Millar

Motion to Amend Exhibit 1 (Sample of Proof CD) turned in with my Petition for
Rehearing of case 19-10522-DD on November 20, 2019.
The United States Court of Appeals,
I would like to sincerely apologize to the Court for mistakenly turning in the wrong
Proof CD with my Petition for Rehearing of case 19-10522-DD.
In 2011 after figuring out that Marvel/Mark Millar were stealing my Owl book and
drawing I sent to them in 2008 to make the 2010 movie Kick-Ass I sent out writing
inquiries to many publishers in a desperate attempt to make some sort of record of
my work to try and protect it from Marvel/Mark Millar.
Believing that Marvel/Mark Millar were going to come back and steal more of my
Owl book, I published Owl Knight’s Quickening on Amazon in 2012 in another
desperate attempt to protect my Owl IP from Marvel/Mark Millar.
What I turned in to the Court by mistake were the 2011 submission letters to
publishers with the first 3 chapters of Owl Knight’s Quickening and my Owl
drawing on a CD.

App. 14

I would like to respectfully Amend this mistake by providing the Court with copies
of the Proof CD I turned in to the State Court when I started my case on March 17,
2017 and subsequently provided to the Defense when I process served them.
I am including pictures of emails between DC Comics Vice President Jay Kogan, DC
Comics Lawyer Joel Press and me that date back to February 21, 2011.
And again I want to say how truly sorry and embarrassed I am about turning in the
wrong exhibit to the Court and I am pleading with the Court to allow me to fix my
mistake the best way I can to possibly salvage some credibility with the court I have
lost.

Respectfully Submitted,
Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713
s/
X

App. 15

Appendix G
In The State Court of Gwinnett County
State of Georgia
FILE IN OFFICE
CLERK STATE COURT
2017 SEP 21 AM 11:38
RICHARD ALEXANDER, CLERK

Plaintiff:

Civil Action File Number:

Michael. Bennett
VS.

17-C-01622-S5

Defendant:

Marvel Entertainment

Defendant:

Mark Millar

Motion to introduce 7/12/2008 Owl Unlikely Crusader Poor Man’s copyright and
Marvel 9/10/2008 Post Office Receipt as exhibits:
Chief Judge Pamela D. South,
In 20081 only sent my manuscript Owl Unlikely Crusader along with Owl coyer art
drawing to three companies Marvel being one of the three. I kept all of my post
office receipts and taped them to the back of my Poor Man’s copyright envelope.
I am turning these documents in to the court as exhibits in hopes that I can use
them as evidence in my court case.

Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713
s/
X

App. 16

Appendix H
In The United States District Court
For the Northern District Of Georgia
Atlanta Division
FILED IN CLERK’S OFFICE
U.S.D.C. - Atlanta
OCT 27 2017
JAMES N. HATTEN, Clerk
By: s/
Deputy Clerk
Plaintiff:

Civil Action File Number:

Michael Bennett

1:17-CV-03505-ELR

VS.
Defendant:

Marvel Entertainment

Defendant:

Mark Millar

Motion to introduce 7/12/2008 Poor Man’s Copyright and Marvel Post Office
Receipt:
Honorable Judge Eleanor L. Ross,
In 2008 I only sent my manuscript Owl Unlikely Crusader along with Owl cover art
drawing to three companies Marvel being one of the three. I kept all of my post
office receipts and taped them to the back of my Poor Man’s copyright envelope.
I have turned these documents in to the State Court Clerk’s Office on 9/21/2017 as
exhibits in hopes that I can use them as evidence in my court case.
Respectfully Submitted,
Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713
s/
X

App. 17

Appendix I
In The United States District Court
For the Northern District Of Georgia
Atlanta Division
FILED IN CLERK’S OFFICE
U.S.D.C.-Atlanta
OCT 23 2017
JAMES N. HATTEN, Clerk
By: s/ Deputy Clerk

Civil Action File Number:
1:17-CV-03505-ELR

Plaintiff:

Michael Bennett
VS.
Defendant: Marvel Entertainment
Defendant: Mark Millar

Motion to force Marvel Entertainment to accept service on behalf of Mark Millar:
Honorable Judge Eleanor L. Ross,
I have provided an affidavit to the State court stating that Marvel authorized
person Elon Bard accepted summons with supporting papers on behalf of Mark
Millar on August 14/2017.
Although I believe Mark Millar is a former employee of Marvel Entertainment I
wanted to point out that on April 6, 2016 I sent Marvel Entertainment a Cease and
Desist letter which explained Mark Millar’s criminal copyright infringement.
On May 11, 2016 a slanderous article from the UK where Mark Millar is from was
posted about me by Bleeding Cool News written by Rich Johnston. This article was
followed by many mean posts directed at me.
I believe given the dates of these two incidences that they are connected. I believe
that Marvel Entertainment contacted Mark Millar after receiving the Cease and
Desist letter and the slanderous article was Mark Millar’s way of manipulating his
media contacts in the UK to try and discourage me from pursuing Marvel
Entertainment and himself.

App. 18

I believe that this gives some proof of a continuing relationship between Marvel
Entertainment and Mark Millar. My hope being that the court will accept my
process service on Mark Millar delivered to Marvel Entertainment’s address.
On September 13, 2017 Marvel filed a Notice of Removal and in it they claimed that
Mark Millar was not a Marvel employee
Quote page 2, #3 of Notice of Removal “Millar is not and has never been an
employee of Marvel. Accordingly, Marvel refused to accept service on behalf of Mark
Millar.”
I find this statement to be untrue. I have attached images of Marvel comic book
covers all of which have Mark Millar’s name on them. Thus Marvel has branded
Mark Millar’s name with they’re company joining them together.
I believe if Marvel can accept my 2008 writer’s inquiry Owl Unlikely Crusader and
Owl cover drawing and give them to Mark Millar to steal, they can accept service on
Mark Millar’s behalf and give those papers to him as well.
Webster’s Dictionary - employee - a person hired to work for another.
I believe Mark Millar is the definition of a Marvel employee.
In addition Marvel ignored my warnings since 2011 about Mark Millar stealing
intellectual property which I believe makes them culpable for Mark Millar’s actions
and the actions of all those of which were involved.
Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713
s/
X

App. 19

Appendix J
In The United States District Court
For The Northern District Of Georgia
Atlanta Division
FILED IN CLERK’S OFFICE
U.S.D.C.- Atlanta
AUG 02 2018
JAMES N HATTEN, Clerk
By: s/ Deputy Clerk
Plaintiff:

Civil Action File Number:

Michael Bennett

1.17-CV-03505-ELR

VS.
Defendant:

Marvel Entertainment

Defendant:

Mark Millar

Motion to Remove Mark Millar as Defendant from Case l:17-CV-03505-ELR
Honorable Judge Eleanor L. Ross,
I motion and respectfully request the court to Remove Mark Millar as a Defendant
from Case l:17-CV-03505-ELR because the defendant is a United Kingdom citizen
and I have not perfected my service papers as of yet on Mr. Millar and I don’t think
I have enough time to perfect my Service by my deadline of August 7, 2018.
I thought because Mark Millar’s name was on so many Marvel Comic Book Covers
and Mark Millar often brags about working for Marvel in interviews and social
media and because it was Marvel that gave Mark Millar my 2008 Owl Unlikely
Crusader book and Owl drawing that I would be able to serve Mark Millar through
Marvel Entertainment. I know now I was mistaken.
I hope by removing Mark Millar will resolve a problem I have with my paper work
and court case l:17-CV-03505-ELR can continue.
Because American copyright owners are increasingly vulnerable to piracy and
expropriation abroad and subject to inadequate protection of their interests under

App. 20

foreign laws I would prefer to remove Mark Millar as a defendant if this would fix
case 1:17-CV-03505-ELR.
But if I need to serve Mark Millar to be able to continue my case I would
respectfully request the court to grant me a continuance so I could properly process
serve papers to Mark Millar.
I was hoping to be able to prosecute Mark Millar because he has held many talent
contest in the past for his UK company “Millar World” where he coaxes
unsuspecting people from all over the world to submit they’re original comic book
ideas, drawings and writings, in essence they’re dreams and for their troubles I am
convinced Mark Millar steals these submissions and presents the stolen intellectual
property to companies like Marvel as his own.
But If I was able to successfully sue Marvel Entertainment then they could in turn
go after Mark Millar themselves.

Respectfully Submitted,
Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713
s/
X

App. 21

Exhibit 1
Captain America The Winter Soldier exhibit 16
Owl in Street Clothes = Falcon in Street Clothes
-Owl wearing street clothes while he uses his wings is like Falcon wearing street
clothes while he uses his wings.

Owl excerpt: page 19

movie chapter 10 1:14:54

James is dressed as if he was going to work just like any other day. He has his
engineer’s uniform on, a pair of khaki pants, brown shoes, and a plaid button
down short sleeve shirt.
Owl excerpt: page 21
James frantically pulls the vest and wings back out of its bag, and starts putting
them on. He runs to his workstation and impatiently waits for the reboot to finish, a
minute and a half left.

Crap! I forgot to put the under harness on. Without it I could fall out of the suit
while in flight.
James runs back to the storage room, finds the under harness in the bag and
pulls the black undergarment on over his pants. Then he attaches it to his
vest.

Ex. 1

Side note: When I published Owl Knight’s Quickening on Kindle in January 2012
after my synopsis I invite readers to watch “The Mike and Andy Fishing Show,” on
YouTube.
After finding my book on Kindle I believe Mark Millar did so. :
Probably because in my video which made Mark Millar so angry, “Michael Bennett
Calls Mark Millar a Plagiarist to DC Comics VP Jay Kogan,” he couldn’t see what I
looked like.
In 2012 the first video that would have popped up would be, “Victory Pond part 1”
published on March 6th 2012.
•
.
It just so happens in that video l am wearing a green V-neck t-shirt, blue jeans and
dark sneakers exactly the same street clothes Falcon is wearing in the movie.

f iW wd \ ate gonna take

Ex. 2

Side note: You can also see the truck I was driving, a 2006 Silver Dodge Dakota.
Mark Millar crashes a 2006 Silver Dodge Dakota earlier in the movie Captain
America Winter Soldier too.

Mh

1

»

/

■i

,~

•-*- V

Gwe me an alternate route.

Ex. 3

Side note: Mark Millar Highlights the road in a Reddish-Orange color leading
Marvel’s character Nick Fury right to the 2006 Silver Dodge Dakota where he rear
ends it and spins it out.
I believe this is Marvel/Mark Millar threating my life and more Mark Millar Evil
Symbolism.
I think this symbolizes Mark Millar rear ending me and spinning me out by stealing
my book, “Owl Knight’s Quickening,” because he got so angry at my “Michael
Bennett Calls Mark Millar a Plagiarist to DC Comic’s VP Jay Kogan,” video that I
sent to his bosses and co-workers back in 2011.

Ex. 4

Side note: Boy! Mr. Mark Millar really showed me...
Not only did he show me that if you make a video where you call him a plagiarist
that makes him angry he will steal your original comic book character for old
Marvel characters and also steal it for his company Millarworld.
Not only will he steal your whole comic hook story and hack into your phone so he
can listen and watch you 24/7 to steal more IP from you...
But because Mr. Mark Millar is so awesome he will rub your nose in it while he is
stealing it.
Touche Mr. Mark Millar touche...

Ex. 5

Exhibit 2
Captain America The Winter Soldier exhibit 4 Seven Wounds Matching

1. Stabbed Right Shoulder
-On Owl's book cover he has a stab wound on his right shoulder (which is easier to
see on the Owl Unlikely Crusader pencil drawing) is like Captain America getting
stabbed in his right shoulder.

Ahhh!

Ex. 6

2. Torso Grazing Wound or Scratch
-On Owl's book cover there is a grazing wound on his left arm and a scratch on his
left torso is like Captain America getting grazed on his left torso.

*

3. Gunshot Exit Wound to Left Leg
-On Owl's book cover he has a gunshot wound on his left leg is like Captain America
getting shot on his left leg.
-If you are shot where Captain America is shot then you could have an exit wound
where Owl has an exit wound.

Ex. 7

4. Gunshot Exit Wound to Right Arm
-On Owl’s book cover he has an exit wound on his right tricep is like Captain
America getting shot in the right shoulder at a angle that could leave an exit wound
on his right tricep.

The Winter Soldier is below, behind and to the left of Captain America who is
climbing over a railing when he shoots Captain America.
Above is a drawing showing how Marvel/Mark Millar positioned Captain America to
be shot and have an exit wound on his the right tricep just like Owl in the Owl art.

Ex. 8

5. Gunshot Exit Wound that Bleeds Through
-Captain America is shot for a fourth time matching the number of gunshot wounds
Owl has on the cover art.
-On Owl’s right leg gunshot exit wound is the only wound you can see blood soaking
his pants is like Captain America’s stomach gunshot exit wound is the only wound
you can see blood soaking through his uniform.

i
T.

■

4^
* 'V-

6. Cut Left Cheek
-On Owl's book cover he has a cut on his left cheek is like Captain America getting
cut on his left cheek.

Ex. 9

7. Eye Socket
Owl excerpt: page 55
With that the doctor reaches up arid claws Owl’s face digging his thumb into
his eye socket. Owl lets go of his hold on the helicopter and punches Morikaido in
the nose, breaking it at the same time getting the doctor off his face, but not
without losing some flesh

Ex. 10

